                        U.S. SMALL BUSINESS ADMINISTRATION 
 

                           OFFICE OF INSPECTOR GENERAL 

                                Washington, D.C. 20416 
 



                                             MEMORANDUM AUDIT REPORT
                                            Issue Date: March 22, 1999
                                            Report Number: 9-07


TO:          Thomas A. Dumaresq, Assistant Administrator for Administration

             lsi Original Signed
FROM:        Peter L. McClintock, Assistant Inspector General for Auditing

SUBJECT:     Memorandum Audit Report - On-line Women's Business Center
             (Cooperative Agreement No. [FOIA ex. 2]     )

       We completed an audit of the SBA cooperative agreement that partially funded
the On-line Women's Business Center (OWBC) in Dallas, Texas. The OWBC was
established in 1996 when SBA's Office of Women's Business Ownership recognized
that the Internet could maximize provision of business information and assistance to
women business owners. SBA entered into a cooperative agreement with the North
Texas Women's Business Development Center to create the OWBC and provide on­
line counseling and technical assistance to women interested in starting or expanding
businesses. Modification 2 of the cooperative agreement requires that the recipient
provide matching funds equal to 50 percent of Federal funds for year 1 and 100 percent
for year 2. As of September 9, 1998, the OWBC had received $480,000 in Federal
funding and reported matching funds (cash and in-kind) totaling $315,001.


                              OBJECTIVE AND SCOPE

       The objective of the audit was to determine whether claimed costs were
allowable. Judgmental samples, with emphasis on large dollar amounts, were used to
test costs allocated to the first two program years. We reviewed the cooperative
agreement, program regulations, accounting records, and cost documentation. We
also interviewed North Texas Women's Business Development Center board members,
OWBC officials, and SBA officials. The audit was performed in accordance with
Government Auditing Standards.
                                 RESULTS OF AUDIT

       We identified $3,822 of claimed costs for a computer that were unallowable.
Also, OWBC purchased office supplies and airline tickets from companies owned by
North Texas Women's Business Development Center board members, creating the
appearance of a conflict of interest, and OWBC's record keeping needed improvement.
OMB Circular A-122, "Cost Principles for Non-Profit Organizations," and the SBA
cooperative agreement provide the principles for determining allowable costs.


FINDING 1: Unallowable Expenditure of Funds

       The OWBC inappropriately charged a $3,822 computer to Federal funds. The
cooperative agreement prohibited equipment purchases with Federal funds. The
OWBC Director at the time believed that $90,000 in supplemental Federal funds for
goods and services could be used for the computer. The original award prohibited the
purchase of equipment with Federal funds. The revised budget did not change the
prohibition and didn't provide for any Federal funding of equipment.

Recommendation

1A. 	   We recommend that the Assistant Administrator for Administration notify the
        OWBC to reimburse SBA $3,822 for the inappropriate use of Federal funds for
        the purchase of computer equipment.

OWBC Comments

        The OWBC agreed with the finding, but disagreed with the recommendation for
two reasons. First, the OWBC believed that they should be granted relief due to the
fact that the SBA required performance of work different from that prescribed by the
original terms of the agreement. Secondly, the OWBC stated that they received verbal
approval from SBA to purchase the computer since the OWBC was maintaining the site
on its server. OWBC's response is included as Attachment 1.

Evaluation of OWBC Comments

       Although we agree that the responsibility for physical and support maintenance
for the site was transferred to the OWBC, the OWBC cannot provide any
documentation supporting their position that verbal approval had been obtained.
Furthermore, we were unable to find any evidence of SBA officials granting such verbal
approval.




                                           2

FINDING 2: Apparent Conflict of Interest

        The OWBC purchased $1,764 of office supplies and $1 ,462 of airline tickets from
companies owned by North Texas Women's Business Development Center board
members. OMB Circular A-110, "Uniform Administrative Requirements for Grants and
Agreements With Institutions of Higher Education, Hospitals, and Other Non-Profit
Organizations," states that "all procurement transactions shall be conducted in a
manner to provide, to the maximum extent practical, open and free competition." The
Circular also states that the recipient shall be alert to organizational conflicts of interest
that may restrict or eliminate competition. Although there was an organizational conflict
of interest, there was no evidence of unreasonable prices being paid.

Recommendation

2A. 	   We recommend that the Assistant Administrator for Administration notify the
        OWBC to cease the practice of purchasing goods and services from companies
        owned by North Texas Women's Business Development Center board members.

OWBC Comments

       The OWBC agreed with the finding and recommendation and stated that all
future purchases will be in accordance with OMB Circular A-110.

Evaluation of OWBC Comments

        The OWSC's proposed action is responsive to our recommendation.


FINDING 3: Record Keeping Needs Improvement

       The OWBC did not have time and attendance records for a former director and
an administrative assistant to sUbstantiate the percentage of effort expended on the
project. Also, the OWBC did not always document the purpose of trips taken. OMS
Circular A-122 requires costs to be adequately documented. The cooperative
agreement requires time and attendance records for salaried employees to be
maintained in sufficient detail to create a clear audit trail and to substantiate the
percentage of effort expended in support of the project objectives. A former director
stated that she believed the director's position was "exempt" from the requirement of
time and attendance records. The director's position was salaried and, therefore, was
not "exempt. n

Recommendation

3A. 	   We recommend that the Assistant Administrator for Administration notify the
        OWBC to clearly document the purpose of future travel and to maintain
        appropriate time and attendance records for all employees.


                                              3

OWBC Comments

       The OWBC agreed with the finding and recommendation and stated that all
travel will be documented and daily time sheets will be maintained for all positions.

Evaluation of OWBC Comments

       The OWBC's proposed action is responsive to our recommendation.

                          SBA MANAGEMENT'S RESPONSE

      The Director of the Office of Procurement and Grants Management verbally
concurred with all findings and agreed to implement the recommendations.


                                         ***

      The findings included in this report are the conclusion of the Auditing Division
based upon the auditors' testing of the auditee's operations. The findings and
recommendations are subject to review and implementation of corrective action
by your office following existing Agency procedures for audit follow-up and
resolution.

       Please provide us your management decisions for the recommendations within
80 days. Record your management decision on the attached SBA Form 1824,
"Recommendation Action Sheet" and show either your proposed corrective action and
target date for completion, or an explanation of your disagreement with our
recommendations.

       This report may contain proprietary information subject to the provisions of 18
USC 1905. Do not release to the public or another agency without permission of the
Office of Inspector General.

       Should you or your staff have any questions, please contact Victor R. Ruiz,
Director, Headquarters Operations at (202) 205- [FOIA ex. 2]

Attachments




                                            4

                                                                               Attachment 1
                                                                                 Page 1 of 5




                                                                                   S_
                                                       Online Women'. B...in_ Cantar
                                                        1GO W_IIocIUngDb'd Lane,            27D
                                                                         DaI.... T.... 1IM7 

                                                     Phone: 21..,.... Fa: 21.,.... 

                                                                  URI.: www~~a...,. 



"....1_     BUSlf\ESS CENTER                                      Emd:~
           





To: 	          Jason CU8Idy
               Headquarters Operations

From: 	        Kathy J. Durivage, Executive Director
               North Texas Women's Busmea Development Center
               Online Women·s Business Center
subject 	      AudIt of the Online Women', Business Center
               (CooperatIve Agraement No. [FOIA ex. 2]            )

The Board of DIrectors and the ExecutIve Directcr for the OnUn. Women's Buein. .
Center are grateful for the professionalism and the courtesy extended them by the audit
teem during this audit. VVhfle this was a dlftlcult time far an Involved In the operatton of
the Online Site, the resulting lessons learned by site personnel is priceless.

Thia organtzatlon agr.... with the three audit findings in the subject draft report. 'The
findings are factuaJ and are thus indisputable. We respectfully request certain
consideration of the recommendations, based on the enclosed discussion and
documentation. prior making fin.. l'IICDrm1endations. Additional information ia aleo
included to provide supplemental doaumenlatton to support the unaJlowable
expenditure and unsupported costa.

For ease of .........nce, each finding is addl'8laed on a separate sheet of paper and 

.ef..-.ncad _ an attachrMnt to thta letter. FWquaat you consider the rationale and
documentation sufficient In answer to the audit findings. Should our response not be
detailed to satIsfY the draft audit report, please contact the undersigned for addttional
infonnation.

This response is being sent two days ahead of the requested date in on2er to allow ume
for additional Information, if required by the audit team. Again, thank you for all the
consideration for our organization during the audit.



[FOIA ex. 6]
Kathy J. f!)urlVage
Executive Director
                                                                                  Attachment 1
                                                                                    Page 2 of5



FINDING: The OWBC inappropriately charged a $3,822 computer to Federal funds.

BASIS: Th1ere are two significance palms for COnSidering this cost allowable under the
cooperative agreement. One, under the Constructive Change Clause, the SBA should
grant the grantee relief due to the fact that the SSA required performance of work
diflilrant from that p..scribed by tne original terms of the agreement. A constructive
change is anything that creates a change in a contract that is not of offidal nature. It
may be oral, wrttten, or smpty an omiSsion on the part of the contracttng officer. It can
also be an act or action of someone else that is subsequently condoned by the
COIatladin;. Second, the Online center received verbal approval from the SBA oftlce to
purchaM the computer since the Online Center was maintaining the site on lis 88fVeI'.
WIlle wr1lten approval documents cannot be Jocaled, detailed accounts of the verbal
approval have bean verified. A copy of the GOms Iett8r ia attached (1IUact'in I6I'It 1) for
yourrwtew.

DISCUSSION: The original solIcItatIOn, the technical proposal In response to that
8OIicHation. the award notification, subsequent modlfieatton and letter communications,
finniy document that the original intent of the SSA was to maintain the site on an
intamal SBA computer aerver. The Original proposal and supporting budget were
subrnIttIId and accepted by the SSA with the constant intention of SBA maintaining the
site on Ita server. Documentation and communication, as well as budget expenditures,
cIearty outline the fact that the SBA could not and did not have the abiHty to maintain
the OnUne site on its internal server. Regardless of this change in the SBA's position
on this COIltrad issue, the SBA transferred the responsibility for the physical
maintenance as well as the support maintenance for this aspect of the conti act award.
In fact, the Online site has performed this function for the past twenty nine months
without proper oompenaation. The SBA's technical support for Online . . . . been
distant, also not In accordance with the original agreement Both of these actions
cauHd InCreaSed cost to the Online Site.
RECOMMENDATION FROM THE ONUNE SITE: Recommend that the
recommendation be reviMd to notify the OWBC to :

1A    Recommend that the SBA Instruct the contnIdIng officer to ratify the action of
      the OnHn. . . . to allow for the oomputer purdlaee for the purpoae of maintaining
      the intamet site. Upon ratification of the computer purchase, this act wit then
      become appropriate. In addition, at paragraph 15, OMB Circular 122. the
      definition of equipment was changed from S5OO.00 to $5,000.00. VVfth this
      definition covering grants of this type, relief may be granted to both parties.
      Ratification of a grantee's prior action is permissible if the contracting otnoer
      considers the action appropriate baaed on the circumstances at the time of the
      original action.
                                                                                            ... 


                                                                                               "

          1
          ~
                  ~ i        'I!' Ilif'~; I
                             I~I Illlf~
                                                                ~   u       .~
      l       iii i f                                  .            5                               ,
                                                                                                    ....
                                                                                                    N



                                                                                                    (II

                                                                                                    !
                                                                                   c                    .
                                                                                   .InIII           ~
               (B t          I~       til J                z:
 I
      t!l slrr Ill; lltl!'
      Ii -               ;
                                                           I !                 I~
                                                                               n
 II
 I

cJ,   t'l!~. Ill'  I ~§ iJ;o J
             ~IiJi 1 h f~ ,f I                             ~.
                                                           I                   ~I
 I

 f    hJ
      I;
      119     I
               If) I if
               I,f    or -
                              a
                                      It'ii   I.   I        .
                                                           i-
                                                                               jI~
                                                                               I!
                                                                               .-
                                                                               .. z
                                                                                                     2J
                                                                                  ~
 •
 t


      .If      &111
                              f II.
                                      '
                              ~I 'Ilfl I
                                                   ~
                                                           I
                                                           tI                  .
                                                                                  a
                                                                                   z                 ~

       It
                                                                                                     ::r

               I;,            [I ill(1 I                   n
                                                           I            ~=t
                                                                                                     ~
                                                                                                     (0


                                                                                                      ~

                                                                        ~,,~                        ~
                                                                                                                 ~

          Iff.~
                                                                                                     ...    -Oil)
                                                                        ~                            .      Il)n



                              •       Bil                               ~
                                                                        ~
                                                                                                            UJ:T
                                                                                                            (I)
                                                                                                            w(I)
                                                                                                            a;a
                                                                                                                 3

                                                                                                            U"I .....
                                                                                 Attachment 1
                                                                                   Page 4 of5




It wu ~ that the . . . . 'MY to .... the Tau OD-Ilne TIIIII WIt to &he tb8ft *­
190.000.00, atwhlc:b 130,000.00 aauJd I..... to 'AInII ..GIll"."
                                                            to . .bin tile.,.. "".,
. . . .t'I!Ctkaawtllllitl. 'l'bI .......... ...,eauldbe........ 11          . ,. . . . . .
aWidiua ott. .....
Howwer. ,ou . . DOt aompelled to ... the IIID.-y. VDal have twa aptioIII:
ODe: 	 It"", cIo8OC nile tbe ....... tbeIIIO,OOD.OO ........... ,.,. II1II . . . . ., . 

       ...'...,..............,.....,,._'.....&_ oalt In d RtD_ ..... 

         . - ,............ 3 . . . .f.12 1P4sqlQwtaCla_,' ...... ..,•• 

Two= 	   It,.   law ..,a.I. till ........ do . . . . eM ....... IDDIIB)'. )'GIl cia nat MIll 

         to . . it _

Cae oltt. _ _ .... did til       .""*.
                       it WIll., blClkto _   ~



                                     wa diD nat know.... the . . . .    of",.._1.1.,
maai. wauId be. Tb1a WIt. wa.Y1O . . . .au. tbal it. lite hid the ftmdIaa far the
~ IItIAiataI wbich lISA dI4_ baft.
                                                                                  lW1



pro.,...
I bape .... bu ........ , qUlltiant Jenl_adl wiIb}lOU" ..... widl tbia ·'M...


cc: 	
         ...,..
         aera,. BIIIry
         Daria11aDu 

         SuieWanhal 

                                                                            Attachment 1
                                                                              Page 5 of 5



Apparent Conflict of Interest Finding

2A.. 	   The Online Women's Center agrees with the finding and recommendation. All
     future purchases will be in accordance with OMB Circular A-II O.
Record Keeping Needs Improvement

3A. 	    The Online Women's Center ag..... with the finding and recommendation.
         All positions of the Online Center require a daily time sheet and are
         maintained on fife. Additionally, alf travel is documented and maintained
         onfi18.
